National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                              January 29, 2014


The Honorable Barbara A. Mikulski
Chairwoman
Subcommittee on Commerce, Justice,
 Science, and Related Agencies
Committee on Appropriations
United States Senate
Washington, DC 20510

The Honorable Richard C. Shelby
Ranking Member
Subcommittee on Commerce, Justice,
 Science and Related Agencies
Committee on Appropriations
United States Senate
Washington, DC 20510


Dear Madam Chairwoman and Senator Shelby:

The National Aeronautics and Space Administration Authorization Act of 2000 directs the
NASA Inspector General to conduct an annual audit to assess the extent to which NASA is
complying with Federal export control laws and the Act’s requirement that NASA report to
Congress any cooperative agreements between the Agency and China or any Chinese company.1

The NASA Office of Inspector General (OIG) last reported to you regarding these issues in
January 2013. Since that date, NASA has not entered into any cooperative agreements with
China or any Chinese company. During the past year, the OIG conducted four audits
examining the Agency’s controls for its information technology (IT) assets and security
systems, many of which contain data subject to export control laws. In addition, during this
period we completed a special review examining a Chinese national’s access to NASA’s
Langley Research Center and our Office of Investigations closed two investigations related
to the security of NASA’s IT assets or concerns about Chinese-manufactured parts. We
summarize this work below.




1
    Public Law 106-391, codified at 51 U.S.C. § 30701(a)(3).
                                                                                              2


Audit Reports
NASA’s Information Technology Governance (IG-13-015, June 5, 2013)

IT governance is a process for designing, procuring, and protecting IT resources. For this
reason, effective IT governance must balance compliance, cost, risk, security, and mission
success to meet the needs of internal and external stakeholders. In this audit, we examined
whether NASA’s IT governance structure appropriately aligns authority and responsibility
to support the Agency’s overall mission.

We found that the decentralized nature of NASA’s operations and its longstanding culture of
autonomy hinder the Agency’s ability to implement effective IT governance. NASA’s Chief
Information Officer (CIO) has limited visibility and control over a majority of the Agency’s
IT investments, operates in an organizational structure that marginalizes the authority of the
position, and cannot enforce security measures across NASA’s computer networks.
Specifically, although the CIO is responsible for developing IT security policies and
procedures and implementing an Agency-wide IT security program, because the position
lacks authority and control over the majority NASA’s networks, the CIO is unable to
enforce the implementation of IT security programs across all NASA IT assets.

NASA’s ability to secure its networks is further complicated because the Agency lacks a
complete inventory of IT assets. For example, five Center CIOs told us they could not
account for 100 percent of the IT systems and hardware at their Centers. To overcome the
barriers that have resulted in inefficient and ineffective management of the Agency’s IT
assets and IT security, we made eight recommendations to the CIO. The CIO generally
concurred with our recommendations and proposed appropriate corrective actions.

To view the full report, visit http://oig.nasa.gov/audits/reports/FY13/IG-13-015.pdf.

NASA’s Progress in Adopting Cloud-Computing Technologies (IG-13-021,
July 29, 2013)

The adoption of cloud-computing technologies has the potential to improve IT service
delivery and reduce the costs associated with managing NASA’s diverse IT portfolio.
Specifically, cloud computing offers the potential for significant cost savings through faster
deployment of computing resources, a decreased need to buy hardware or build data centers,
and enhanced collaboration capabilities. NASA was a pioneer in cloud computing having
established its own private cloud computing data center called Nebula in 2009 at the Ames
Research Center. In 2012, NASA shut down Nebula based on the results of a 5-month test
that benchmarked Nebula’s capabilities against those of Amazon and Microsoft. The test
found that public clouds were more reliable and cost effective and offered much greater
computing capacity and better IT support than Nebula.

In our audit, we examined whether NASA evaluated the security of and risks in moving
Agency data and services to the cloud. We found that weaknesses in NASA’s IT
governance and risk management practices have impeded the Agency from fully realizing
the benefits of cloud computing and potentially put NASA systems and data stored in the
                                                                                            3


cloud at risk. For example, several NASA Centers moved Agency systems and data into
public clouds without the knowledge or consent of the CIO. Moreover, on five occasions
NASA acquired cloud-computing services using contracts that failed to fully address the
business and IT security risks unique to the cloud environment. Finally, NASA moved a
system to a public cloud and it operated for 2 years without authorization, a security or
contingency plan, or a test of the system’s security controls.

We made eight recommendations to the CIO to help strengthen NASA’s cloud computing
practices, mitigate business and IT security risks, and improve contractor oversight. The
CIO concurred with our recommendations and proposed appropriate corrective actions.

To view the full report, visit http://oig.nasa.gov/audits/reports/FY13/IG-13-021.pdf.


NASA’s Process for Acquiring Information Technology Security Assessment and
Monitoring Tools (IG-13-006, March 18, 2013)

NASA spends more than $1.5 billion annually on IT assets, including approximately 550
information systems the Agency uses to control spacecraft, collect and process scientific
data, provide security for its IT infrastructure, and enable personnel to collaborate with
colleagues around the world. However, the Agency’s use of advanced technology coupled
with the large size of its networks makes NASA an attractive target to cyber-attacks. To
thwart such attacks, NASA must ensure that its IT systems and their associated components
are regularly safeguarded, assessed, and monitored. The Agency’s CIO spends at least $58
million annually on IT security, a portion of which is used to acquire and manage security
assessment and monitoring tools. In this audit, we examined NASA’s policies and
procedures related to its acquisition of IT security assessment and monitoring tools.

We found that the Agency has not fully implemented a process for identifying its IT security
assets. Because NASA does not have a process that captures, consolidates, and assesses IT
security tool requirements across the Agency, centralized purchases of tools do not regularly
occur. This inability to consolidate requirements and centralize purchases limits NASA’s
efforts to reduce cost and improve program efficiencies on critical IT investments. To
improve NASA’s process for acquiring Agency-wide IT security assessment and monitoring
tools, we made four recommendations to NASA’s CIO. The CIO concurred with our
recommendations and proposed appropriate corrective actions.

To view the full report, visit http://oig.nasa.gov/audits/reports/FY13/IG-13-006.pdf.

Federal Information Security Management Act: Fiscal Year 2013 Evaluation
(IG-14-004, November 20, 2013)

This annual report, submitted as a memorandum from the Inspector General to the NASA
Administrator, provides the OIG’s independent assessment of NASA’s IT security posture.
For fiscal year 2013, the OIG reviewed a sample of eight Agency IT systems and two
contractor IT systems. We also reviewed NASA’s progress in implementing prior OIG
recommendations.
                                                                                              4


Overall, we found that NASA has established a program to address the challenges in each of
the 11 areas designated by the Office of Management and Budget for review: continuous
monitoring management, configuration management, identity and access management,
incident response and reporting, risk management, security training, plan of action and
milestones, remote access management, contingency planning, contractor systems, and
security capital planning. However, we also found that the Agency needs to enhance its
efforts with regard to configuration management, risk management, and contractor systems.

To view a summary of this report, visit http://oig.nasa.gov/audits/reports/FY14/IG-14-
004.pdf.


Special Review
Bo Jiang’s Access to NASA’s Langley Research Center (October 22, 2013)

In March 2013, a member of Congress publicly questioned whether NASA had
inappropriately afforded Bo Jiang, a Chinese national working as a NASA contractor, access
to the Langley Research Center (Langley) and to Agency data and IT. The Congressman’s
concerns were prompted at least in part by internal NASA documents suggesting it had been
improper for Langley to hire Jiang as a contractor, allow him unescorted access to the
Center, and provide him with data related to his research. On March 16, 2013, after being
terminated from his position, Jiang was in the process of returning to China when agents
from the Department of Homeland Security searched him at Dulles International Airport as
part of an investigation of potential export control violations. After questioning him about
the electronic media he had in his possession, agents took Jiang into custody and charged
him with making a false statement to Federal authorities because a search of his belongings
revealed media he had not declared. Subsequent to Jiang’s guilty plea to a misdemeanor
security offense, the OIG opened an administrative investigation to examine the process by
which Jiang came to work at Langley and the information and IT resources to which he was
given access.

In 2002, Langley and the National Institute of Aerospace (NIA), a nonprofit research and
graduate education organization located in Hampton, Virginia, entered into a cooperative
agreement pursuant to which Langley frequently hired NIA personnel as contractors to work
on NASA research projects. Jiang originally came to the United States in 2007 as a Ph.D.
student at Old Dominion University in Norfolk, Virginia, before becoming a postdoctoral
research assistant for the NIA. Jiang began working at Langley in January 2011.

In November 2011 and again in November 2012, Jiang visited family in China taking with
him a NASA-provided laptop computer. It was during the second visit that an export
control professional at Langley learned that Jiang had taken the laptop to China and raised
concerns with attorneys at Langley and personnel in the Headquarters’ Export Control
Office about Jiang’s travel and access to NASA information without prior review by export
control officials. The Langley export control official also claimed that Jiang’s work as a
paid NASA contractor violated funding restrictions in NASA’s appropriations legislation.
Jiang returned to the United States in December 2012 and Center computer security
                                                                                             5


personnel examined his NASA-provided laptop to determine whether it contained export-
controlled information. In January 2013, NIA terminated Jiang’s employment for violating
NIA policy by taking the laptop to China and because NASA had ended the agreement
under which Jiang had been hired.

We found that NASA did not violate appropriations restrictions by hiring Jiang as a paid
contractor through the NIA cooperative agreement. Moreover, while Langley’s process for
requesting access for foreign nationals was structured pursuant to NASA regulations, we
found the process overly complex, required input from numerous Center and Headquarters
employees, and not sufficiently integrated to ensure that responsible personnel had access to
all relevant information. In addition, we determined that several employees who had roles
in the screening process made errors that contributed to the confusion about the proper scope
of Jiang’s access to Langley facilities and IT resources and the appropriateness of Jiang
taking his NASA-provided laptop to China.

In the wake of the Jiang incident and at the request of the NASA Administrator, Langley
management has taken a number of steps to strengthen its foreign national access process,
including increased education and training for Langley employees, revising the form used to
request access for foreign nationals, ensuring the Center CIO’s Office is involved in the
foreign visitor request process, and contracting with the National Academy of Public
Administration to assess the effectiveness of NASA’s Agency-wide foreign national access
program. We made six recommendations in our review to improve NASA’s foreign visitor
approval process. The NASA Administrator concurred with our recommendations and
proposed appropriate corrective actions.

To view the full report, visit http://oig.nasa.gov/Special-
Review/OIG_Investigative_Summary.pdf.


Investigations
Romanian National Arrested and Indicted

On January 17, 2013, a Romanian national was indicted in U.S. District Court for the
Southern District of New York on multiple counts of criminal conspiracy. The Romanian
national allegedly ran a “bulletproof hosting” service that enabled cybercriminals to
distribute malicious software and conduct sophisticated cybercrimes. Malware distributed
by this hosting service has infected over one million computers worldwide, including
computers belonging to NASA, causing tens of millions of dollars in losses to individuals,
businesses, and government entities. The OIG is working jointly with the FBI on this
investigation.
                                                                                              6


Civil Settlement with Government Contractor

In February 2013, World Wide Technology, Inc., agreed to pay $735,000 to settle
allegations that it violated the Trade Agreements Act, which requires that goods provided to
the Federal Government be manufactured in designated countries. The investigation began
after the company self-disclosed that it may have incorrectly certified that products sold to
NASA and the Department of Defense were in compliance with the Act. A joint
investigation by OIG and the Department of Defense confirmed that the company had
improperly filled 174 orders, including 29 NASA orders worth $255,000, using Chinese-
manufactured products.

If you or your staff would like to meet with us to discuss any of the reports or investigations
discussed in this letter, please contact me or Renee Juhans, OIG Executive Officer, at
202-358-1220.

Sincerely,




Paul K. Martin
Inspector General



cc:   Charles F. Bolden, Jr.
      NASA Administrator

      David Radzanowski
      Chief of Staff

      Larry Sweet
      Chief Information Officer

      Michael F. O’Brien
      Associate Administrator, International and Interagency Relations

      Richard Keegan
      Associate Administrator, Mission Support Directorate

      Michael Wholley
      General Counsel
                                                                              7



Identical letter to:

The Honorable John D. Rockefeller, IV   The Honorable Frank Wolf
United States Senate                    U.S. House of Representatives

The Honorable John Thune                The Honorable Chaka Fattah
United States Senate                    U.S. House of Representatives

The Honorable Bill Nelson               The Honorable Darrell Issa
United States Senate                    U.S. House of Representatives

The Honorable Ted Cruz                  The Honorable Elijah Cummings
United States Senate                    U.S. House of Representatives

The Honorable Thomas R. Carper          The Honorable John Mica
United States Senate                    U.S. House of Representatives

The Honorable Tom Coburn                The Honorable Gerry Connolly
United States Senate                    U.S. House of Representatives

                                        The Honorable Lamar Smith
                                        U.S. House of Representatives

                                        The Honorable Eddie Bernice Johnson
                                        U.S. House of Representatives

                                        The Honorable Paul Broun
                                        U.S. House of Representatives

                                        The Honorable Dan Maffei
                                        U.S. House of Representatives

                                        The Honorable Steven Palazzo
                                        U.S. House of Representatives

                                        The Honorable Donna F. Edwards
                                        U.S. House of Representatives
